l
2
3
4
5

PROOF OF SERVICE
{CCP ยง1013a, 2015.5)
I, the undersigned, declare as follows:
I am-employed in the City and County of San Francisco, State of
California; I am over the age of eighteen years and AM a party to the
within entitled action; my business address is 15 Boardman Place #2,
94103.
On this date, I caused to be served a true copy of the attached document (s): petition for

writ of certiorari and exhibits in appendix

6
7
8

& Request to proceed in forma
pauperis for Petition for Writ of
Certiorari & request to waive
requirement of 10 copies

9
10
li
12
13
14
15

On parties named below, addressed as follows:
STATE BAR OF CALIFORNIA
180 HOWARD STREET, SAN FRANCISCO, CA 94103
JUDGE ROLAND 180 HOWARD STREET, SAN FRANCISCO, CA CALIFORNIA SUPREME
COURT 350 MCALISTER STREET, SAN FRANCISCO CA 94103 & I DELIVERED A
COPY TO "BESTMESSENGER COURRIER SERVICE" 1513 P STREET, NW # 200,
WASHINGTON DC, 2005, WITH SPECIFIC INSTRUCTIONS TO DELIVER THE ABOVE
INDICATED DOCUMENTS WITHIN 3 CALENDAR DAYS FROM RECEIPT.
dispatchQbestmessenger.net

16
17
18
19
20
21
22
23

(x )
BY MAIL:
I placed said documents in a sealed envelope, with the
appropriate postage thereon fully prepaid for first class mail, for collection and
mailing at San Francisco, California, following ordinary business practices.
BY PERSONAL SERVICE:
( )
I caused each such envelope to be delivered by hand to
the number indicated after the address noted above.
(x)
BY FACSIMILE/EMAIL:
I caused the said document to be transmitted by EMAIL
to the EMAIL ADDRESS indicated after the address noted above for the courier
service, with instructions to deliver/file all papers to Sup. Ct. within 3 days.

I declare under penalty of perjury under the laws of the State
of California that the foregoing is true and correct.
Executed $n /ebrtfiary 6, 2021 at SAN FRANCISCO, California.
<_
/S/
dani:
ITT, Esq. PRO SE
i

24
25

l

26
27
28

Proof of service

Page 1

Additional material
from this filing is
available in the
Clerk's Office.

